<html>
<title> - EFFORTS TO PREVENT PANDEMICS BY AIR TRAVEL</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



               EFFORTS TO PREVENT PANDEMICS BY AIR TRAVEL

=======================================================================

                                (109-9)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 6, 2005

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
21-630                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)



                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New       NICK J. RAHALL II, West Virginia
York, Vice-Chair                     BOB FILNER, California
LYNN A. WESTMORELAND, Georgia        JAMES L. OBERSTAR, Minnesota
VACANCY                                (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Brown, Dr. Ronald., MD., Managing Partner and CEO, AeroClave, 
  LLC............................................................    24
 Gendreau, Dr. Mark A., MD, Senior Attending Physician, Lahey 
  Clinic Medical Center..........................................    24
 Jordan, Jon L., Federal Air Surgeon, Office of Aerospace 
  Medicine, Federal Aviation Administration......................     6
 McCawley, Dr. Michael, PH.D., Executive Vice President and Chief 
  Scientific Officer, Respiratory Management Technology, Inc.....    24
 Meenan, John, Executive Vice President and COO, Air Transport 
  Association....................................................    24
 Schuchat, Captain Anne, Acting Director, National Center for 
  Infectious Diseases, Center for Disease Control and Prevention, 
  Department of Health and Human Services, accompanied by Ram 
  Koppaka, Division of Global Migration and Quarantine, Centers 
  for Disease Control and Prevention.............................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    44
Oberstar, Hon. James L., of Minnesota............................    67

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Brown, Dr. Ronald...............................................    37
 Gendreau, Dr. Mark A............................................    46
 Jordan, Jon L...................................................    51
 McCawley, Dr. Michael, PH.D.....................................    58
 Meenan, John....................................................    62
 Schuchat, Captain Anne..........................................    70

                       SUBMISSION FOR THE RECORD

 Jordan, Jon L., Federal Air Surgeon, Office of Aerospace 
  Medicine, Federal Aviation Administration, response to a 
  question from Hon. Elanor Holmes Norton........................    18

                         ADDITION TO THE RECORD

Albright, Penrose C., Assistant Secretary for Science and 
  Technology, Department of Homeland Security, statement.........    85

 
               EFFORTS TO PREVENT PANDEMICS BY AIR TRAVEL

                              ----------                              


                        Wednesday, April 6, 2005

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Aviation, Washington, D.C.

    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the subcommittee] presiding.
    Mr. Mica. Good afternoon. I would like to call this hearing 
of the House Aviation Subcommittee to order.
    Thank you for your patience while I was late today. I had 
some constituents and a school group and they take precedent 
even over the Subcommittee business.
    The order of business today will be opening statements by 
members, then we have two panels of witnesses and we will 
introduce them. I will begin with my opening statement and then 
will yield to other members and then we will hear from our 
first panel.
    The title of today's hearing is our efforts to prevent 
pandemics by air travel. I believe that one of the most 
important responsibilities of the Aviation Subcommittee is to 
both anticipate and also preempt significant problems that may 
drastically affect our commercial aviation industry. Today's 
hearing will focus on the spread of contagious diseases by 
commercial aviation.
    I think we all remember that the terrorist attacks of 2001 
killed some 3,000 people and its after-effects seriously 
damaged our economy. What we may have forgotten is that while 
our aviation industry was struggling to recover, it was also 
hurt by the Asian SARS epidemic. SARS sent another devastating 
shock to passenger air service and nearly destroyed or 
bankrupted a number of airlines. Billions of dollars were lost, 
regional air traffic disrupted, and economies were very 
seriously affected.
    SARS fortunately was limited and contained. But as we may 
know from some news accounts and some folks who are looking at 
the bird flu epidemic, we may face an even more serious 
pandemic and we must be prepared. A pandemic contagious disease 
spread rapidly by air travel could do untold damage to both our 
aviation industry and also to our economy.
    Well before commercial air travel arrived on the scene 
pandemics circled the globe in a variety of ways. In fact, the 
1918 influenza pandemic caused over 50 million deaths worldwide 
and over 1.5 million here in the United States. Ironically, I 
learned not too long ago that my grandmother, whom I never met, 
died in that epidemic of 1918.
    Today, with over 1.6 billion passengers traveling worldwide 
each year on commercial air carriers, there is a real threat 
that these sometimes deadly diseases can be transmitted around 
the globe in just a matter of hours. There is also concern that 
epidemics, or pandemics for that matter, could be intentionally 
caused by terrorists or instigated by terrorists on board an 
aircraft or at airports and rapidly transported around the 
world.
    In four short years since the 9/11 attacks in 2001, the 
U.S. airline industry has incurred losses of well over $32 
billion. These enormous losses are attributed to a variety of 
factors, including the 9/11 three-day shutdown of our national 
airspace system, the war in Iraq and Afghanistan, high fuel 
prices, and also the SARS epidemic that we saw as the virus 
spread through Asia.
    While there is no exact price tag associated with the 
outbreak of SARS in early 2003, which in fact resulted in a 
sharp decline in passenger traffic to and from Asia and Canada 
and the United States, the pandemic adversely affected 
economies and the airline industry worldwide lost billions of 
dollars, again from this one incident. With the potential of 
dramatic economic losses, caused either by viruses or 
terrorists who use viruses, a proactive posture rather than a 
reactive posture is an absolute necessity.
    In June 2003, our Subcommittee took a look at the SARS 
situation as well as the issue of air cabin quality. According 
to the World Health Organization, there were more than 8,000 
probable SARS cases worldwide between 2002 and July of 2003. Of 
these cases, 774 resulted in death.
    Today's hearing will focus on questions that need to be 
answered if we are confronted with a serious world pandemic or 
a terrorist biological threat using commercial aviation.
    With respect to aviation, the Department of Homeland 
Security's Science and Technology Biological Countermeasure 
activities are focusing now on two major areas--first, 
protection of airports against biological attacks, and also the 
development of advanced detection technologies that have 
application for protection of individual aircraft.
    Because of the serious health risks and potential economic 
consequences associated with pandemics, it is imperative that 
processes are in place to deal with potential problems of 
spreading contagious disease by air before, and I stress before 
this threat has a chance to occur.
    I am pleased now to recognize the acting Ranking Member, a 
former Ranking Member of our Subcommittee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for convening 
a hearing on this important issue. I am looking forward to 
hearing from the panel, so I will defer in the interest of time 
my opening statement time to Ms. Holmes-Norton, who I believe 
has a statement she wishes to make.
    Mr. Mica. You are recognized.
    Ms. Norton. I thank the Ranking Member and I thank you, Mr. 
Chairman, for this hearing. You have focused and this 
Subcommittee has appropriately focused on the attacks on air 
travel since 9/11. That was a mammoth challenge that I think 
this Subcommittee and Committee met very well. We have not 
concentrated as much on attacks within planes, as it were, by 
natural diseases, if I may call them that, as we have on the 
kinds of attacks that have so devastated us here and around the 
world.
    We are still concerned about those attacks, if you bear in 
mind chemical attacks and biological attacks, but we are far 
more likely as citizens to encounter a disease from travel or 
from contact with someone who has traveled than we are to be 
the victim of an attack on an airplane. The avian flu, SARS, 
you have mentioned, Mr. Chairman, are but perfect examples of 
this.
    We are not, of course, just talking about those who travel. 
We are certainly talking about those who go from one 
destination to another, but we are also talking about the 
destinations to which they come and bring with them whatever 
they have encountered where they were. Those are the citizens 
we represent.
    The only question I have, Mr. Chairman, is why have we been 
so free of the transmission of such diseases thus far given the 
whirlwind rate of air travel and of citizens of every variety, 
not just business people, not just Members of Congress, but 
citizens of every variety going all over the world all the 
time. Perhaps it is that we have very good health regulations. 
I am not sure why.
    But I am very grateful. In any case, I want to compliment 
you, Mr. Chairman, for getting hold of this before it does 
become a matter of serious concern in our country.
    Thank you very much.
    Mr. Mica. I thank the gentlelady. Are there additional 
opening statements? Ms. Johnson?
    Ms. Johnson. Thank you, Mr. Chairman. With over 1.6 billion 
passengers traveling worldwide each year, the risk of spreading 
disease by air travel is real and warrants utmost diligence. We 
hear all the time about recycling the same air. And as 
evidenced by the SARS outbreak just a few years ago, for both 
public health and economic reasons, it is imperative that we 
pay close attention to the relationship of international air 
travel to public health.
    We have been a very open country before many of these types 
of viruses and diseases spread very rapidly. But now, with 
global warming and looking at the path of disease traveling 
various places, it is becoming more and more important that we 
give much more attention to it. In late June of 2004, the World 
Health Organization reported that new lethal outbreaks of avian 
influenza and infections were reported by several countries in 
Asia, Cambodia, China, Indonesia, Malaysia, Thailand, and 
Vietnam. Fortunately, no sustained human-to-human transmission 
of the virus has been identified. Nevertheless, the outbreak in 
Asia poses an important public health threat.
    So as a result of this, the World Health Organization has 
urged all of us to develop and update influenza pandemic 
preparedness plans for responding to a swiftly moving 
contagious disease and to address the widespread socioeconomic 
disruptions that will result from having large numbers of 
people sick and dying. And while we do not hear about this very 
much, very frequently in air travel the airline attendants will 
bring to your attention how concerned they are about breathing 
this same air over and over.
    Fortunately, we have not had the kind of problem that we 
hope to be ahead of. But I think it does warrant that we get 
busy and try to look into it.
    I will file the rest of my statement, Mr. Chairman, and 
thank you and the witnesses for coming today.
    Mr. Mica. I thank the gentlelady. Ms. Berkley?
    Ms. Berkley. Thank you very much, Mr. Chairman, for holding 
this hearing. Preventing the spread of disease is important in 
dealing with all air travel, but it is particularly important 
to international travel. After 9/11 and during the SARS 
outbreak, international travel to and from McCarran Airport in 
Las Vegas declined and declined dramatically. However, the 
airport passenger count has now exceeded pre-9/11 numbers. Last 
year, more than one million international travelers flew into 
McCarren Airport.
    Given the large number of international travelers arriving 
in Las Vegas each year, it is vital that airport and public 
health officials have readily available information and any 
resources necessary to protect the Las Vegas community and the 
millions of tourists who come to visit. I know that sounds 
somewhat parochial, and I am interested in the general aviation 
information, but given the fact that McCarran Airport is in the 
center of my district, I am particularly interested in it due 
to the large volume of international travelers that we have 
coming to visit Las Vegas and enjoy our wholesome family 
entertainment.
    So I want to thank you again, Mr. Chairman. I look forward 
to the witnesses and to hearing your testimony. Thank you.
    Mr. Mica. I thank the gentlelady. Are there other opening 
statements? Mr. Pascrell?
    Mr. Pascrell. Thank you, Mr. Chairman. Chairman Mica and 
Ranking Member Costello and DeFazio, I want to thank you for 
holding the hearing. This Committee has a significant role to 
play. The Federal Government must pay proper attention to 
public health threats such as the spread of infectious disease 
via aviation before we find ourselves in a public health 
emergency.
    In 1918, 25 million people worldwide died in six months 
from an influenza pandemic dubbed the ``Spanish Flu.' While we 
have better medications today, we also have a level of mobility 
unprecedented. And that is what makes the threat of pandemics 
so alarming.
    In a recent article in the New Yorker magazine, entitled 
``Nature's Vile Terrorist,'' it spoke directly to the threat 
that we now face--public health officials in Thailand, 
commenting on how a pandemic would spread, observed, ``People 
around here fly to Hanoi, to Phnom Penh, Paris, they visit 
China, they travel all over. Well, you have to realize this and 
accept it. If you take a plane ride to Paris, you may be taking 
an epidemic with you.''
    If there is an outbreak of pandemic influenza, our front 
lines in the battle against the disease will be on our 
airplanes and in our airports. Flight attendants, pilots, and 
aviation workers, along with hundreds of thousands of 
passengers would be at immediate risk. It is ironic that 
yesterday in the State of New Jersey we had a top-off dealing 
with a very, very serious spread of a disease in a bio-attack 
on the counties of Union and Middlesex county. All of the 
agencies responded in a most, most appropriate manner. And 
those of us on Homeland Security were very pleased at the 
response. This is real though. This is real.
    So we have options available to prepare for such an 
occurrence. Yesterday I joined my colleague from New Jersey, 
Congressman Frelinghuysen, in sending a letter to the Secretary 
of Health and Human Services, Michael Leavitt, in support of 
the President's budget request for the Strategic National 
Stockpile. However, we also questioned where we stand with 
respect to the draft ``Pandemic Influenza Preparedness and 
Response Plan,'' which was released last August, as you well 
know.
    The draft plan is supposed to be a blueprint for how the 
United States would act before a pandemic hurts us and hits us 
and how we would cope with the pandemic outbreak when it 
occurs. It has been more than six months since the release of 
the draft plan and we have not heard much regarding it. With 
all of the reports about the spread of avian flu in Southeast 
Asia, I am extremely concerned that our planning efforts may be 
overtaken by events.
    I would hope that the CDC would shed some light on that 
issue during our hearing today, as all relevant agencies should 
be privy to Federal reports and plans. We do not want anything 
redacted. As we find so often, coordination and communication 
is key to both effective preparedness and response. I thank 
you, Mr. Chairman, for allowing me the opening statement.
    Mr. Mica. I thank the gentleman. Are there additional 
opening statements? Mr. Ehlers, you are recognized.
    Mr. Ehlers. Thank you, Mr. Chairman. I will attempt to be 
brief but I certainly want to thank you for calling this 
hearing. I had read the New Yorker article that the previous 
speaker mentioned and I have taken a look at some other issues 
surrounding pandemics.
    It is interesting that many of the pandemics were caused by 
aviation long before we had airplanes, they were spread by 
migratory birds. So what we are talking about is not something 
new, it is just a different magnitude and a different speed at 
which things will happen. But it is clearly a matter of huge 
concern.
    We spend so much time worrying about homeland security and 
other security issues. I can assure you that natural causes may 
well be far more serious over the next decade than the number 
of deaths caused by terrorist activity. I think it is very 
important for this Committee and others to be educated on the 
role that aviation plays in the spread of disease.
    It is particularly interesting looking at the history of 
bubonic plague and how that spread. It was really one of the 
first cases of a major pandemic caused by new modes of 
transportation, particularly by shipping. It was able to spread 
much more rapidly than it had before. Of course, aviation 
presents a much grater problem than ordinary shipping of 
several hundred years ago.
    I look forward with great interest to seeing the 
information, but particularly facing the issue and trying to 
determine what, if anything, we can do to prevent the spread of 
disease through aviation. I just returned from a trip 
yesterday, a fairly lengthy trip, and I was struck by the 
number of people starting to wear masks as they fly and when 
they are walking through the terminals. They are taking matters 
into their own hands. That is one answer, but not everything is 
communicated through inhalants, it can also be through touch 
and so forth.
    So thank you for calling the hearing and I look forward to 
hearing from the witnesses.
    Mr. Mica. I thank the gentleman. Are there any other that 
have opening statements? If not, we will proceed to our first 
panel.
    I would like to welcome our panelists. We have Dr. Jon L. 
Jordan, Federal Air Surgeon, Office of Aerospace Medicine, the 
Federal Aviation Administration; and then we have Captain Anne 
Schuchat, Acting Director, National Center for Infectious 
Diseases, Centers for Disease Control and Prevention, the 
Department of Health and Human Services, and I believe Captain 
Schuchat is accompanied by Dr. Ram Koppaka, division of Global 
Migration and Quarantine, of the Centers for Disease Control 
and Prevention.
    I am pleased to welcome the three of you. I do not think I 
have seen you before. If you have any lengthy statements or any 
information you would like to be made part of the record, feel 
free to ask for submission of that through the Chair and we 
will make certain that it is included in the record of today's 
hearing.
    With that, I would like to welcome our three panelists. We 
also have visiting in the audience today Trinity Christian 
Academy, which happens to be from the Chairman's district. So 
those young people in the back are probably attending their 
first congressional hearing. We would like to welcome them and 
the chaperons that are with them today.
    Mr. DeFazio. Mr. Chairman, if I could join in the welcome 
to the students from your district and let them know that you 
are an all-knowing and powerful Member of Congress as Chairman 
of this Committee, and they should be duly impressed to be in 
your presence.
    [Laughter.]
    Mr. Mica. Well, we do not want to take that to a vote right 
now.
    [Laughter.]
    Mr. Mica. But I do miss Mr. DeFazio's sense of humor as the 
former Ranking Member of the Aviation Subcommittee.
    So with that introduction of the young people who are 
attending the hearing, and I have just introduced the three 
witnesses that we have, one from the Federal Aviation 
Administration and two from the Centers from Disease Control, 
who are going to tell us what they are doing to deal with the 
possibility of spreading disease or pandemic by air.
    I would like to recognize first Dr. Jon L. Jordan of the 
FAA. You are recognized, and welcome.

  TESTIMONY OF JON L. JORDAN, FEDERAL AIR SURGEON, OFFICE OF 
 AEROSPACE MEDICINE, FEDERAL AVIATION ADMINISTRATION; CAPTAIN 
ANNE SCHUCHAT, ACTING DIRECTOR, NATIONAL CENTER FOR INFECTIOUS 
DISEASES, CENTER FOR DISEASE CONTROL AND PREVENTION, DEPARTMENT 
   OF HEALTH AND HUMAN SERVICES, ACCOMPANIED BY RAM KOPPAKA, 
   DIVISION OF GLOBAL MIGRATION AND QUARANTINE, CENTERS FOR 
                 DISEASE CONTROL AND PREVENTION

    Dr. Jordan. Thank you very much. Chairman Mica, Congressman 
DeFazio, and members of the Subcommittee, good afternoon. It is 
a pleasure to appear before you today to discuss the efforts to 
prevent pandemics by air travel. I recognize that this is a 
priority of this Subcommittee and FAA shares your concerns. It 
has also been a matter of significant concern to aviation 
passengers and the crews that earn their living by working on 
commercial transport aircraft. Secretary Mineta and 
Administrator Blakey both take these concerns seriously. They 
are supportive of efforts to help protect the health, safety, 
and comfort of the travelling public and cabin crews.
    I wish to offer my full statement for the record and 
highlight just a few points here.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record. Please proceed.
    Dr. Jordan. This will be a short statement, Chairman Mica.
    An important new initiative is underway in the Office of 
the Secretary of Transportation. The Office of the Secretary, 
in coordination with the Department of Health and Human 
Services, is compiling a best practices manual to provide 
airport operators and local health authorities with assistance 
in responding to the threats of contagious diseases in 
international gateway airports.
    Guidelines and other important information are being 
assembled from experiences at airports throughout the world and 
will be used for training sessions that the Center for Disease 
Control and Prevention plans to begin this spring. In 
publishing this best practices manual, the Department will make 
this information widely available to airport owners and 
operators and public health officials.
    Considering the potential of pandemics and contagious 
disease transmission on airliners in general, issues inevitably 
arise concerning the quality of air in airliner cabins. It is 
important, however, to understand that studies have indicated 
that many aspects of cabin air are as good or better than that 
air found in offices and home environments. For those aircraft 
that recirculate some part of the cabin air, that air is 
typically passed through high quality filters before it returns 
to the cabin. Manufacturers of new airplanes used by air 
carriers incorporate either high efficiency particulate air 
filters, similar to those used in hospital isolation areas and 
surgical suites, or particulate filters that are somewhat less 
effective. HEPA filters are defined by EPA as those with the 
filtering efficiency of 99.97 percent. The filters remove dust, 
vapors, bacteria, and fungi. HEPA filters also effectively 
capture viruses. Several airlines, in coordination with 
aircraft manufacturers, have even installed HEPA filters on 
airplanes that did not originally incorporate them into their 
design.
    Even though progress has been made with these efforts, we 
still need to know more about what affects cabin air quality 
and what further improvements can be made. In September of 
2004, the Federal Aviation Administration announced the 
establishment of an Air Transportation Center of Excellence for 
Airliner Cabin Environment Research, which I will refer to 
ACER. This is headed by Auburn University. ACER will research 
cabin air quality and conduct an assessment of chemical and 
biological threats. The FAA will provide funding for the center 
and matching funds will be provided by the private sector.
    ACER will conduct a comprehensive and integrated program of 
research and development in cabin environment. The team brings 
the diverse expertise necessary to conduct research on the 
healthfulness of cabin environment for passengers and crew, 
enhancement of aircraft environmental control systems, and 
detection and mitigation of chemical and biological threats 
aboard aircraft. ACER aims to be a unique resource for 
airlines, equipment manufacturers, cabin crews, and the 
travelling public, and places a major emphasis on partnerships 
with industry.
    Finally, I would like to briefly comment on one area that 
is concern to travelers--chemical disinsection, a term used to 
describe the process for ridding an aircraft of insects--has 
been a long time concern. The Office of the Secretary of 
Transportation chairs an interagency working group that is 
taking a lead in researching and developing means of non-
chemical disinsection of aircraft. OST's efforts are currently 
focused on air curtain technology, which would prevent insects 
from both entering and leaving aircraft, thus eliminating the 
need for treatment with pesticides. DOT is about to embark on a 
pilot program with Jamaica to demonstrate this technology.
    In closing, Mr. Chairman, on behalf of Administrator 
Blakey, I would like to reiterate that FAA is committed to 
ensuring the safest flight possible--from the safety of the 
operation of the aircraft to the quality of the air that 
passengers and crews breathe inside the cabin. I look forward 
to working with the Subcommittee regarding any concerns you 
might have on the quality of airliner cabin air and, 
specifically, efforts to prevent pandemics in air travel. This 
concludes my testimony and I would be happy to answer any 
questions you might have.
    Mr. Mica. Thank you. We will hear from Dr. Anne Schuchat, 
Acting Director of the Center for Infectious Diseases, first 
and then we will go to questions.
    Welcome, Captain Schuchat, also a medical doctor, and you 
are recognized.
    Captain Schuchat. Thank you, Mr. Chairman and members of 
the Subcommittee. Good afternoon. I am pleased to be here today 
to discuss this important public health topic. In this age of 
expanding air travel and international trade, infectious 
microbes are transported across borders everyday. Because one 
route of introduction is air travel, and because of multiple 
outbreaks currently going on in other parts of the world, 
today's hearing is particularly timely.
    A pandemic is broadly defined as an epidemic occurring over 
a wide area, crossing international boundaries and usually 
affecting a large number of people. Certain diseases such as 
SARS or certain types of influenza are capable of causing a 
pandemic because of the ease of their transmissibility among 
people, the severity of the illness they cause, the low level 
of immunity among the population, and the ease and speed with 
which people travel. There are other diseases, such as 
tuberculosis and meningococcal meningitis, that may pose less 
of a threat of causing pandemics but are still of significant 
public health concern because of their ease of spread from one 
location to another.
    Because of the variety of infectious disease threats that 
exist in the world and the volume of people traveling, the 
threat of infectious disease introduction and rapid spread is 
real. The best prevention strategy is through disease 
surveillance, early detection, and rapid response. Preventing 
the importation of an infectious disease into the U.S. must 
involve collaborations with many partners and must address 
these critical points: pre-departure, in-transit or upon 
arrival, and post-arrival.
    Pre-departure prevention includes health education at home 
before people travel. On its web site, CDC posts travel notices 
and other important travel information to inform travelers of 
health events taking place globally and steps they can take to 
avoid infection.
    Pre-departure prevention can be improved through 
surveillance for infectious diseases among traveling 
population. One surveillance network is called GeoSentinel. It 
is a global network of 30 travel and tropical medicine 
providers established by the International Society of Travel 
Medicine and the CDC. These sites participate in surveillance 
of all travel related illnesses seen in their clinics and share 
this information.
    The second critical control point is in-transit or on 
arrival in the U.S. The commander of an aircraft destined for a 
U.S. airport is required to report the presence on board of any 
death or any ill person among passengers or crew to the CDC 
quarantine station at or nearest the port of arrival.
    CDC currently has 11 quarantine stations and they have 
established protocols with State and local public health 
authorities for handling ill passengers, coordinating care with 
local hospitals, and handling contacts. We plan to have up to 
18 stations by the end of this year, and our goal is to have 25 
stations at ports of entry that represent over 80 percent of 
international arrivals.
    For post-arrival prevention, mechanisms are in place to 
prevent transmission of disease in the event a person was 
infectious while traveling but the infection was not identified 
until after they arrived in the U.S. In these cases, CDC relies 
on a manual system of gathering, compiling, and processing data 
from flight manifests, customs declarations, and any other 
available sources.
    Quarantine stations routinely work with State and local 
health departments to contact passengers who may have been 
exposed during a flight and provide guidance on what to do. In 
most instances, these are limited events and involve only a 
single aircraft. However, during SARS the process was 
determined to be ineffective for an outbreak that required 
notification of passengers on more than a few flights, 
primarily because this manual paper-based process is slow, 
labor-intensive, costly, and depends upon possibly obsolete or 
inaccurate data. Since then, we have been working with our 
Federal and private sector partners to improve our ability to 
notify passengers of a possible exposure.
    The experience with SARS taught us many practical lessons 
about issues of infectious diseases in today's world of 
frequent air travel. As you are probably aware, there is an 
outbreak of Marburg hemorrhagic fever ongoing currently in 
Angola. We at CDC are following this closely and we are 
participating in the response with our partners at the World 
Health Organization and the Angolan Ministry of Health. This 
situation has not progressed to the point of having quarantine 
officers meet incoming flights to the U.S., but we are prepared 
to do so if we need to.
    In conclusion, both the ongoing outbreak in Angola and the 
current avian influenza situation in Southeast Asia reinforce 
the importance of global surveillance, prompt reporting, and 
adequate containment measures to prevent a localized outbreak 
spreading to other countries and becoming a pandemic. CDC will 
continue to collaborate with State and local health 
departments, industry, other Federal agencies, and other 
partners. A strong and flexible public health infrastructure is 
the best defense against any disease outbreak.
    Thank you for your attention. Dr. Koppaka and I will be 
happy to answer questions that you may have.
    Mr. Mica. Thank you. So Dr. Koppaka will be available only 
for questions, no statement. All right. We will go ahead and 
proceed to questions. I have a few.
    You mentioned, Captain Schuchat, the plans to increase the 
number of quarantine stations. Could you explain further the 
role of the current quarantine stations and how and why they 
should be expanded.
    Captain Schuchat. Thank you, Mr. Chairman. I think it is 
helpful to realize the historical context of our current 
quarantine situation. By the late 1960s there were over 200 
ports of entry overseas, consular offices, and maritime vessels 
that had quarantine capacity or expertise. But after the 
eradication of small pox and the perception that we had won the 
war against infectious diseases, this infrastructure was really 
downsized and we reached a point where there were only six 
ports of entry with quarantine stations.
    The SARS epidemic taught us that we really need this border 
control and ability to evaluate patients on arrival and 
integrate public health response into potential importation of 
infectious diseases. So we are in the process of rebuilding 
that capacity. As I mentioned, we are at 11 stations now, with 
an aim to be at 18 by the end of this year, and a goal of 25.
    In addition to the number of stations increasing, we are 
trying to increase the capacity at the stations with medical 
officers available, more senior public health experts, so that 
we can move from just visual inspection into more public health 
evaluation of the disease risks.
    Mr. Mica. On Friday, President Bush added pandemic 
influenza to the list of quarantinable diseases. Why was that 
necessary?
    Captain Schuchat. The list of quarantinable diseases was 
developed many years ago. In 2003, SARS was added to the list, 
and then Friday novel or emerging influenza strains capable of 
causing a pandemic or actually causing a pandemic was added. 
The spirit of what quarantine is for has always included 
something like pandemic influenza but it was not actually on 
the list.
    This is not an order that we expect to need to use. The 
State and local health authorities have the first line of 
response for quarantine issues. But in terms of preparing for a 
pandemic, having this legal authority available to us sets us 
in better preparedness state.
    Mr. Mica. What kind of additional tools does it give?
    Captain Schuchat. We are able to detain a person, evaluate 
them for their public health risk, arrange for care, and 
evaluate contacts. So it gives us that kind of authority.
    Mr. Mica. Now you work pretty closely with FAA on 
transmission of influenza or communicable diseases. Have you 
been working with them on this best practices manual that they 
talked about?
    Captain Schuchat. Yes. Most of what the CDC does is through 
extremely strong partnerships, and in this area we have a close 
collaboration with the FAA and the Department of 
Transportation. We have been carrying out a series of training 
exercises with our quarantine stations, and the Department of 
Transportation is going to participate in those. So for the 
best practices manual, we are involved as a collaborator I 
would say.
    Mr. Mica. At what stage would you take preventative action? 
So far, what you have described is if you see some signs of 
influenza or sickness, the person is quarantined once they 
enter the United States. At what stage of, say, the bird 
influenza in Asia or what has been described in Angola, at what 
stage do you take preventative measures or screening measures 
of passengers coming into the United States before they get on 
a plane?
    Captain Schuchat. There are a series of steps that are 
carried out in these situations. It is important to 
individualize the circumstance and assess what is going on in 
the distant site. Is there spread beyond close contacts, is it 
into the community, is there a true risk for importation. I 
would just like to clarify that the quarantine executive order 
for pandemic influenza and all of the use of quarantine is when 
voluntary efforts to restrict movement of a potentially 
contagious person have been exhausted. So you do not use it 
every time you think there is a problem. It is really when you 
are not able to get voluntary cooperation.
    Mr. Mica. But you have all the authority you need now to 
proceed?
    Captain Schuchat. The executive order did add pandemic 
influenza and the wording is such that it gave us appropriate 
authority.
    Mr. Mica. And at what point would you take measures? You 
would have to have some evidence that someone could get on a 
plane who was contagious and that there were not measures in 
place to screen those people. Once they get to the United 
States and in quarantine, it is a different situation. They 
have already been on a plane potentially infecting others on 
the plane and the chain sort of starts with that.
    Captain Schuchat. Right. This is why we emphasize the 
importance of controlling the outbreak at its source and why we 
are working so intensively with the World Health Organization 
and with countries in Southeast Asia around the avian influenza 
problem, or why we have people in Angola helping with the 
Marburg situation. So that keeping a sick person from getting 
on a plane is a better way to deal with the potential 
contagious threat than dealing with it after their arriving.
    Mr. Mica. Finally, do we keep records now of folks coming 
in from Angola or from points in Asia? Are they easily 
accessible, so that if we got some report that someone had the 
potential or comes down with a contagious disease after the 
plane has already arrived, Are we prepared for that?
    Captain Schuchat. I think you raise a really central 
issue--how quickly could we notify passengers who were on a 
flight with a potentially infectious traveler. We have a couple 
methods of doing that right now in terms of using the passenger 
manifest and additional information that you can get from 
customs records because the passenger manifests do not include 
addresses. So we still, for the most part, are dealing with a 
manual paper-based type of system. We have a pilot project with 
one of the airlines to explore electronic access to passenger 
manifests and whether that will speed things up.
    Do you want to add anything, Dr. Koppaka?
    Dr. Koppaka. Thank you. I think the only thing I would add 
to what the Captain stated is, since SARS we have also 
developed what we call a passenger locator form that enables us 
to collect locator information on passengers who may have been 
exposed. Again, that assumes that we know there was an ill 
passenger on board the flight. But the intent behind that is to 
facilitate the process of identifying and locating individuals 
that may have been at risk.
    Mr. Mica. Thank you. I have additional questions but let me 
yield to Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Dr. Jordan, in your 
testimony talking about the aircraft cabin air being superior 
to that of buildings, that assumes a certain operational 
aspect, does it not, that is, that the system is being operated 
at its maximum capacity?
    Dr. Jordan. Yes, that is correct.
    Mr. DeFazio. And is there an FAA standard which requires 
the airlines to operate at maximum capacity or at any capacity?
    Dr. Jordan. There is no requirement for that except for 
acceptable air quality. We have design standards for the 
manufacturer of the aircraft, however, that are generally 
followed by the industry.
    Mr. DeFazio. Right. But with high fuel costs, we can expect 
that the aircraft crew are getting orders to crank the system 
down as much as they can.
    Dr. Jordan. Not necessarily. I think it is dependent upon 
the crew's understanding of what the air quality is for the 
passengers and the--
    Mr. DeFazio. Right. But why do we not have a standard? For 
instance, if we are looking at the threat of pandemic, we know 
that in the circulatory system that if you crank it down it is 
more likely that more people in a larger area are going to get 
ill on a plane with a transmissible disease. Why do we not have 
a required standard, particularly in light of this threat?
    Dr. Jordan. We have not found it necessary at this point in 
time. A number of strategies--
    Mr. DeFazio. So there has not been a pandemic yet, so it is 
not necessary? It is kind of like the old tombstone mentality--
the planes have not gone down yet so we do not need to fix the 
problems we know about.
    If I could, as I understand it, we have the vaunted group, 
and I will ask both Captain Schuchat and Dr. Koppaka their 
opinion here, would you think the American Society of Heating, 
Refrigeration, and Air Conditioning Engineers are a well-known, 
medically qualified group to pass on the issues of transmission 
of disease in enclosed spaces? Are they someone you consult 
with regularly?
    Captain Schuchat. Actually, speaking for the CDC, we do 
work with ASHRAE on issues such as infectious disease issues.
    Mr. DeFazio. Right. But do they tell you, or do you sort of 
consult with them when you want to achieve something and you 
then talk to them about how to achieve it? Do they tell you 
what you should achieve?
    Captain Schuchat. No.
    Mr. DeFazio. All right. Well, the FAA has chosen them as 
the body to come up with standards for aircraft. We have been 
waiting for several years for ASHRA to come up with their 
vaunted standard. I would think that we might want to interject 
some of the concerns we are hearing about here into that debate 
and go beyond the grand expertise of ASHRA for aviation. I 
would hope, Mr. Chairman, we could facilitate some 
communication in perhaps the FAA, including some expertise from 
CDC, in consultation with ASHRA, since they are familiar with 
them on these issues.
    The other issue would be, as you said, the HEPA filters and 
others that are not as effective. Why do we continue to allow 
planes that carry over one hundred people to operate without 
HEPA filters?
    Dr. Jordan. Well, we have not seen at this point in time a 
reason to make a requirement.
    Mr. DeFazio. Then why do we have HEPA filters at all if we 
do not need them? The other 85 percent--
    Dr. Jordan. The industry is moving toward HEPA filtration 
toward 100 percent of the fleet.
    Mr. DeFazio. Right. But you see no need, even though 85 
percent of the planes have it and we know it is effective, that 
the other 15 percent is not necessary?
    Dr. Jordan. I think eventually at some point in time we 
will have 100 percent of the aircraft.
    Mr. DeFazio. Right. After a bunch of planes are retired in 
10 or 20 years. So, basically, no operating standard because 
there has not been a pandemic, no requirement for HEPA filters 
because there has not been a pandemic generated by aircraft, we 
are going to wait until after the fact and then we will say, 
gee, maybe we should have required full circulation, maybe we 
should have required HEPA filters, maybe we should have taken 
other measures, and ASHRA has not come back with their 
suggestions yet on how we might better protect the health of 
the traveling public.
    I really am not sanguine about the FAA's position on this. 
I think just hearing the concerns expressed by the Chairman and 
others here that the FAA should revisit this issue. I know 
there is always pressure from the industry. But I really think 
that if they just look back to what happened with SARS, they 
are not going to want to be in a position to see their 
passenger loads cut because they saved a little bit of money on 
fuel and operated the plane at less than maximum efficiency.
    I do appreciate the incremental progress on chemical 
disinsection. I think it has been now 15 years since the United 
States stopped doing it, since we found out it was totally 
ineffective and unnecessary. And we did, with some pressure in 
the last Administration, negotiate away the requirement. But it 
is still being done without passengers' knowledge. I would 
again suggest that the FAA wants to promulgate rules to inform 
passengers, because then those passengers are going to say, 
gee, maybe I really do not want to go to New Zealand, or they 
are going to say to the New Zealand government or the 
Australian government, or one of the others that is practicing 
this bizarre sort of totem-like protection of their country, 
which has no effect but making flight attendants and others 
very ill with chemical sensitivities, that we should at least 
minimally inform the public.
    I have been hearing about the air curtain for two years 
now. I am glad we are going to try it in Jamaica. But, really, 
we are making people sick. I have met with flight attendants 
who are disabled because of chemical disinfection. And 
passengers have no knowledge, even those with multiple chemical 
sensitivities, that they are getting on a plane that has been 
disinfected because of the bizarre requirements of these 
countries that are not protecting themselves against anything 
by doing it. But I appreciate that you are making progress. 
Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman. Mr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman. I would like to pursue 
this but along a different line. What do we know about the 
transmission of disease on aircraft? How much of it comes from 
airborne transmission, how much through contact transmission, 
and how much through ingestion, as an example? For years, we 
believed that colds were transmitted by people sneezing and 
others inhaling those germs. Now the general wisdom seems to be 
that it is primarily through contact with the hands and then 
you touch your nose, your eyes, whatever, and you transmit the 
virus that way. I am just curious what you have learned on 
this, particularly in view of the issues of air quality. Is air 
really the transmission medium, or would we be better off 
handing everyone some alcohol wipes or something like that to 
wipe their hands with every once in a while? Anyone wish to 
respond?
    Dr. Jordan. I think transmission is identified really as 
person-to-person contact, and then the epidemiologic studies 
that have been done in respect to aircraft and the carriage of 
passengers who might have communicable disease indicates that, 
for the most part, it is from the individual who is sitting in 
close proximity to you that you are likely to get the disease 
from. It is not the air system within the aircraft, the 
recirculation of cabin air, it seems to be close contact with 
individuals that have illnesses.
    Mr. Ehlers. By close contact, you mean actually touching 
them?
    Dr. Jordan. Well, it could be touching them, but sitting 
close to them if they are coughing, sneezing, then you are more 
likely to come--
    Mr. Ehlers. But that does not answer my question. I said, 
for example with colds, we always thought it was the coughing, 
sneezing, now I am being told that it is not, it is the actual 
physical touching.
    Dr. Jordan. Well, it could come from a hard surface that 
has bacteria or viruses on it and hand contact with that, or 
contact with the individual's mouth or respiratory system as a 
result of the contact from a hard surface, also from airborne 
fomites that carry bacteria and viruses. But again, it is 
typically being with individuals who have been in close contact 
with someone who is ill.
    Mr. Ehlers. That gets to my second question of maintaining 
the lists. What problems do you encounter in trying to contact 
people once you find out there has been a serious communicable 
disease on the plane? You mentioned you are working on trying 
to make it electronic. But do you have the authority to solve 
that problem now? And if so, what is impeding it?
    Captain Schuchat. The challenges that we face, as I 
mentioned with SARS, when there are multiple flights of 
interest, the volume of passengers is great and the manual 
system is not efficient. So there are a couple of problems. The 
passenger manifest itself would not have all of the relevant 
information. So you need to go to other sources.
    By the time we recognize that there is a problem, time 
might have elapsed from the flight. It may be that we are 
meeting flights and we know there is a problem right away, but 
more typically we learn of an event some time after the flight 
occurred. I think you may remember last August and September 
there was a U.S. citizen who traveled from West Africa into New 
Jersey, who after arrival took a train, and from the train 
basically went to a hospital and some days later died and post-
mortem was diagnosed as having Lassa fever, an infection that 
we do not have in the U.S. that is common in West Africa. 
Trying to go back and find passengers at some remove is 
challenging. So, electronic access to all of the relevant 
information, even remote, even not just the day of arrival or a 
couple days after, would help considerably.
    Mr. Ehlers. But do we have the practice in country when 
someone comes in that they have to list where they are going to 
be staying initially?
    Captain Schuchat. The customs declaration does include your 
address while you are there. So one of the airlines may not 
keep that information in a database themselves, or they may 
have some in their frequent traveler programs. So there are a 
lot of different places where information may be. It is not all 
in the same place and we usually have to go to that next step 
of the customs declarations records to get that. It also may 
not be quite as accurate as if someone was filling information 
out knowing that they might need to be contacted. So that 
passenger locator form that we have developed, that Dr. Koppaka 
described, is an attempt to get better quality information that 
then can be scanned by the quarantine station and we would have 
electronic assess to. But we are not using that routinely for 
every flight. That is when we have a suspicion of an ill person 
in transit.
    Mr. Ehlers. I yield back.
    Mr. Mica. I thank the gentleman. Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman. Mr. Jordan, I was 
interested in part of your testimony on Page 5, where you 
indicate that ACER will conduct--you talk in the future--will 
do research about cabin air quality and conduct an assessment 
of chemical and biological threats, and then you name a set of 
rather distinguished looking researchers or universities, and 
then you say FAA will provide funding and there will be funding 
by the private sector. Unlike some of the rest of your 
testimony which describes dates attached to work being done, 
this all looks like it is in the future. Would you say more 
about whether this work is being done? It sounds almost as if 
we are beginning from scratch.
    Dr. Jordan. We are beginning from scratch with this 
particular effort. This is not the only effort that the agency 
has engaged in in terms of looking at cabin air quality and 
issues related to contamination of aircraft. But it was only 
last August that we established a Center of Excellence for 
Research in Cabin Environment, which includes possible 
contamination of aircraft with biologicals and chemicals. And 
in this activity, we are working with Homeland Security, who 
are very interested in this particular issue, as you might 
guess. The actual research has not started but we have 
established the Center of Excellence, we have a research plan, 
we have funding dedicated to this effort, and we anticipate 
research on this specific issue, decontamination of aircraft 
and contamination of aircraft with biologicals and chemicals, 
will be begin in the very near future.
    Ms. Norton. But you do not have a date for when it will 
begin? You say the money is always available.
    Dr. Jordan. I do not have the specific date. It is part of 
the research plan which covers a tremendous number of issues in 
respect to cabin environment.
    Ms. Norton. May I ask you, have we already done a fair 
amount of research? Do you already know enough to prevent a 
chemical or biological attack being transmitted through cabin 
air, the way in which air is circulated in a cabin?
    Dr. Jordan. Well, we certainly know a great deal about air 
circulation and the cabin environment. But in terms of 
intentional contamination of an aircraft with a biological or 
chemical, there is not a lot that we know about that. We know 
about the transmission of such diseases as Small Pox and others 
like anthrax I suppose that might be used as a contaminant of 
an aircraft. But when it gets to the question of chemical 
contamination, there are a lot of unknowns in respect to that. 
And so a lot of work needs to be done in the development of 
sensor technology, sensors that can actually identify that the 
aircraft has been contaminated, and what must be done in 
respect to the decontamination with the aircraft for that 
specific contaminant.
    Ms. Norton. Dr. Jordan, all I can say is this one of the 
chief worries, also in Homeland Security Committee, that we 
have focused on. Direct attacks of biological and chemical 
attacks are a matter of some great concern. I do not know what 
can be done about them, and that is part of the problem. I 
would like to suggest that you get a date for when this will 
start to the Chairman of this Committee within the next 30 
days. This really sounds like real futuristic stuff, we will do 
this. I was very pleased to hear you say we have the money to 
do it. Well, if you have the money to do it, I do not know what 
we are waiting for. You have got the money, you have got the 
universities, what else is needed?
    Dr. Jordan. Well, it is that we are talking about some very 
difficult technical issues.
    Ms. Norton. You have already got the universities, and you 
spelled them out in great detail. Who is going to do the 
research?
    Dr. Jordan. The research will be done by researchers at the 
various academic institutions that are part of the Center for 
Excellence.
    Ms. Norton. Yes, and you have got their names in your 
testimony. Yet you say you cannot tell me when, in fact, this 
research is going to even begin. And we do not know anything 
about this matter now. I am very concerned if you cannot do 
better than that. I am very pleased that you have gotten as far 
as you have gotten, particularly when you say there is money 
available already. You also say matching funds will be provided 
by the private sector. Have those funds been provided as yet?
    Dr. Jordan. They are being provided by the academic 
institutions as well as industry.
    Ms. Norton. Well, all I can say is I cannot tell from your 
testimony whether this is start-up activity, if you are close 
to where we can expect this very urgent and difficult research 
to begin. I just really cannot tell from your testimony and it 
is very bothersome. So may I ask you to get to the Chairman a 
date within 30 days when you believe this research can begin. I 
do not say you have to say it will begin tomorrow, and you can 
only say when you think it will, but I would very much 
appreciate that.
    Dr. Jordan. All right.
    [The information received follows:] 

    [GRAPHIC] [TIFF OMITTED] T1630.001
    
    Ms. Norton. Could I ask a question of Dr. Schuchat. At Page 
6 of your testimony, you discuss the kind of travel from people 
abroad that, of course, we and every country have direct 
jurisdiction over with respect to the health indicators they 
are required to show when they enter the country; that is to 
say, refugees and immigrants. I have to ask you, in light of 
the amount of air travel that takes place to our country, how 
likely it is that a visitor, a business person, somebody who 
does not seek immigration, is not a refugee, is not subject to 
the normal kinds of health screens that these groups are 
subject to, would in fact be the carrier of a communicable 
disease, and how we handle that huge number of people who 
transit everyday across the world and into our country?
    Captain Schuchat. I think the most important issue for the 
business traveler is to be informed about the health issues in 
the country you are going to. CDC runs a travel health web site 
with a lot of information about--
    Ms. Norton. I am not interested in whether we are carrying 
disease there. We tend to be healthy people. And I am not even 
talking just about business people. My question is about people 
from abroad who are visiting the United States.
    Captain Schuchat. Right. I meant a person from here going 
elsewhere and bringing something back. But you are right, there 
are infectious disease issues in other countries that we do not 
have currently, like the Lassa fever story I told earlier. So I 
think our best approach for these infectious disease problems 
overseas is to have good surveillance of what is going on 
elsewhere and good partnerships through the World Health 
Organization or travel health networks to get information about 
what the risks are.
    Ms. Norton. Suppose we know that in fact there was a 
contagious disease in a country with which we have frequent 
commerce an travel, we know it is there, and here comes a 
visitor to stay three or four days. Is there anything we can do 
when we know that there is a contagious disease going around 
there that could be brought into the country and yet this 
person does not seek to immigrate to this country?
    Captain Schuchat. Yes. This is where we have a tiered 
approach to health risk. So those quarantine stations that I 
was mentioning may do visual inspection of people coming in, 
they may give out information. What we did in SARS is give out 
health alert notices where everybody deplaning from the 
affected countries was given a yellow card with information 
about signs and symptoms to look for over the next 10 days--
give this card to your doctor, this is the number to call if 
you have one of these things, here is what is going on. And we 
translated that information into numerous languages as 
additional countries came on line.
    So there is quite a bit we can do with education both for 
the arriving traveler, businessperson or otherwise, and then 
there are additional steps we can take if we are concerned. If 
we know a person is sick enroute or if they are ill on arrival, 
we can evaluate them medically with these quarantine officers, 
handle their care, refer them to local hospitals that we have 
arrangements with, and we can also evaluate their contacts. So 
we have that kind of authority and capacity right now.
    Ms. Norton. I must say, you apparently, judged only by what 
one picks up in the media, have been reasonably successful, and 
for that I congratulate you and the steps that have been taken 
apparently with some considerable success. I appreciate that 
that is being done and hope that level of success continues. I 
yield back the balance of my time.
    Mr. Kuhl. [Presiding] The Chair recognizes the gentleman 
from Arkansas.
    Mr. Boozman. I just have some general questions. What do 
you feel the greatest risk is as far as the spread of stuff?
    Captain Schuchat. I think that--
    Mr. Boozman. I mean, it is one thing to get on a plane and 
get a cold. It is another thing to get on and get something 
that can have a severely damaging effect to the Nation.
    Captain Schuchat. Right. I would say that our area of 
greatest concern right now is the threat of pandemic influenza. 
Currently, we have quite a bit of attention around the avian 
influenza outbreak in poultry in Southeast Asia.
    Mr. Boozman. So what countries then would we be more 
concerned about than others?
    Captain Schuchat. Let me clarify about that in terms of 
what countries. Influenza is a complex virus and the issue with 
pandemic influenza is that you need a strain of the virus that 
we do not have immunity to, that is easily transmitted from 
person to person, and that is very severe when you get it. 
Right now in Southeast Asia there is a strain of influenza that 
we do not have immunity to. It is spreading easily between 
poultry but it is not spreading easily to humans or from human 
to human. So this particular strain has not developed the 
capacity to easily spread between humans.
    While we have a lot of concern in the Southeast Asia region 
and are increasing our surveillance efforts and laboratory 
support there, I think it is important to realize that a 
pandemic influenza could emerge anywhere. And so it is 
important that we strengthen laboratory capacity around the 
world and the recognition of new influenza viruses. They could 
emerge here. We have, of course, had a lot of interest in Asia 
because of the huge poultry problem. But it is not the only 
area that we need to be attending to.
    Mr. Boozman. In the areas, though, where it has occurred, 
okay, so you know it is there, do we do anything different 
there than in an area where it has never occurred and does not 
have the potential to occur? I mean, if you are flying from 
Iceland where there is no whatever, is that any different than 
flying from Thailand?
    Captain Schuchat. Okay. In terms of the passenger issue, 
there are certain points where we would change approaches to 
arriving passengers. During SARS we designated certain 
countries from which we met every plane, we gave information 
out to people deplaning from those aircraft, and when people 
were ill they were evaluated by the quarantine staff. There are 
a number of issues that get considered to reach that threshold.
    At this point, because there is not widespread human-to-
human transmission, we are not at the stage where we are 
meeting every plane that is coming from Southeast Asia. We 
certainly learned during SARS that there is a lot of travel 
back from some of the affected areas there and we were meeting 
hundreds and hundreds of planes at that point. But we are not 
at that point with the avian influenza concern. But much of our 
effort is preparing to improve the quality of information we 
have about what is going on in parts of Asia, and to improve 
the global and the national public health infrastructure to 
respond and control problems quickly.
    Mr. Boozman. Okay. Thank you.
    Mr. Kuhl. The gentleman from New Jersey?
    Mr. Pascrell. Thank you. I want to frame my questions, if I 
may, the first question I am going to ask is to Dr. Jordan, and 
I want to frame the questions in this respect, that we are at 
war right now. And I am reminded of Lincoln reminding the 
generals during the Civil War, his own generals, hey, we have 
got a war going on here, are we taking this seriously. So I 
want to ask you this question and with that framework. Who is 
responsible in every airplane for checking the quality of air 
before the plane takes off? Who has that responsibility?
    Dr. Jordan. No one takes that responsibility at the present 
time.
    Mr. Pascrell. I am sorry?
    Dr. Jordan. I say no one takes that responsibility at the 
present time, other than perhaps the operator of the aircraft.
    Mr. Pascrell. I am not surprised at the answer, and I thank 
you for your candor. Because I think if you look back over the 
last 30 years in terms of responsibilities in a lot of these 
areas, from security all the way up, do we have the cart being 
pulled, or is the cart pulling the horse? This is serious 
business and I think you understand that. So what is the role 
of the airlines to begin with, very basic, is pretty dubious, 
pretty dubious, indeed.
    This report, Captain, that I referred to earlier, the 
Pandemic Influenza Preparedness and Response Plan, was finished 
last August. I would like to know where are we in 
implementation? Reassure me in some manner, shape, or form now 
that I know that the next plane I get on we have no idea who is 
responsible for checking the air. And we are concerned about 
the spread of disease? You have got to be kidding me. In our 
own minds, we are not at war.
    Captain Schuchat. Thank you. I appreciate the analogy to 
war, and I think that the Department of Health and Human 
Services is taking the risk of pandemic influenza incredibly 
seriously. As you mentioned, there was a draft pandemic 
influenza planning document released last August and we have 
received numerous comments on that draft.
    There are several efforts going on now around pandemic 
planing. We have intensified surveillance as an approach to 
improving the information we have, strengthening surveillance 
internationally, particularly in a couple of those Asian 
countries, working in close partnership with the World Health 
Organization's influenza collaborating centers. So we are 
really tracking the viruses that are occurring in different 
places.
    We have also improved surveillance in the United States and 
a tremendous amount of energy has gone into improving the 
capacity of our states to recognize the avian influenza, should 
it emerge here.
    CDC has trained 31 states, laboratory professionals in 
those states, with new molecular techniques to recognize the 
H5N1 avian strain of influenza, should one of the people here 
with an influenza-like illness actually have that bug. We 
intend to complete training of the rest of the states this 
year.
    In addition to surveillance, HHS has invested a lot of 
priority and resources into vaccine development and supply 
issues, which is a critical area to be ready for a pandemic, 
both in research and development of new approaches to vaccines 
for influenza that will potentially improve the reliability of 
the vaccine supply, encouraging expansion of manufacturing 
capacity in the United States.
    So HHS has funded efforts for both cell-based production of 
influenza vaccines, and egg-based production. There is also a 
major effort of stockpiling anti-viral drugs to prepare for 
response.
    In terms of the draft, it has gone through much since it 
was issued in August. I would say it is at the final stages in 
terms of intensifying the interactions with the state and local 
partners who are going to have to use this, since one of the 
goals is to guide updating or developing state and local 
capacity. So it has been given huge priority, and it is moving 
quite quickly.
    Mr. Pascrell. And you will share that as soon as it is 
completed?
    Captain Schuchat. Absolutely.
    Mr. Pascrell. You cannot give us a time when it will be 
finalized? You cannot give us a date?
    Captain Schuchat. I am not aware of a date, but we could 
get you one. We could get that to the Committee.
    Mr. Pascrell. In the report from my friend from Michigan, 
the magazine article, the New Yorker Magazine, I would like you 
to respond very quickly and I will read this quickly. It is a 
very small paragraph in this report, which I found a little bit 
disturbing.
    ``When the Bush Administration's Health and Human Services 
Secretary Tommy Thompson announced his resignation in December, 
he cited a potential epidemic of avian influenza as one of the 
greatest dangers facing the United States.'' That is what he 
said.
    The World Health Organization has put a conservative 
estimate of debts from such an event at between 2,000,000 and 
7,000,000 people, and expect that as many as one billion people 
would fall.
    Is this hyperbole? Should we not even be talking about 
this? Do we scare people out of their wits, and we do not know 
what the heck we are talking about, or is this real? This is 
not reality TV, is it?
    Captain Schuchat. The influenza virus is an extraordinary 
virus with the capacity to do huge damage to populations. We 
are in better shape now than in 1918, because we have 
antibiotics.
    Mr. Pascrell. That is reassuring.
    Captain Schuchat. Right, but our current estimates of the 
toll that a pandemic would take in the United States are not of 
the magnitude of what we saw in the last century. But as you 
know, there were three pandemics in the last century, and 
people who were very expert on influenza do not think it is a 
question of if, but it is a question of when.
    This is why we are giving the highest priority to the 
planning around pandemic flu. It is going to improve our 
ability to deal with other infectious diseases, natural or 
intentional, and we take it incredibly seriously.
    Mr. Pascrell. Thank you, and thank each of you for your 
service for this country.
    Mr. Kuhl. Yes, the Chair would recognize the gentleman from 
Illinois, Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. Mr. Chairman, I have 
no questions at this time. I simply want to thank the witnesses 
on the first panel for being here.
    I apologize that I came in late. We had a delegation 
meeting with the Secretary of Energy concerning some major 
projects. I thank my colleague, Mr. Defazio, for sitting in, 
and I thank the witnesses for being here today. I look forward 
to hearing the testimony of panel number two.
    Mr. Kuhl. Thank you, Mr. Costello. I likewise would like to 
apologize for coming in late. I do have just one question, if 
you can share an answer, or at least give us a brief overview. 
I note that the CDC and the FAA are working together on this 
issue.
    My question comes to, have you had any kind of a 
relationship or an investigation or a development or a program 
with the Department of Homeland Security as it might relate to 
bio-terrorism in this area, in the aviation industry?
    Dr. Jordan. Yes, we have. Our Center of Excellence, which 
was created at Auburn University as the administrative lead, 
has been in close contact with Homeland Security, in terms of 
potential contamination of an aircraft from biologicals or 
chemicals, and the decontamination of those aircraft. We 
anticipate that this will be a major initiative at the Center 
of Excellence.
    There are other universities that are a part of this 
effort, including Purdue and Harvard University and Boise 
State. There is a whole list of them, as well as other 
universities outside the immediate circle of the universities, 
that are an official part of the center of excellence. So there 
is coordination going on currently, and it will go on into the 
future.
    Mr. Kuhl. Great, thank you, let me at this time thank all 
of you for appearing. On behalf of Chairman Mica and the 
members here, we appreciate your participation here, Dr. 
Jordan, Captain Schuchat and Dr. Koppaka. Thank you very much. 
It has been very, very helpful.
    I would like to call the second panel now for testimony, 
that panel consisting of Mr. John Meenan, Executive Vice 
President and COO of the Air Transport Association; Dr. Mark 
Gendreau, MD, Senior Attending Physician at the Lahey Clinic 
Medical Center; Dr. Michael McCawley, Executive Vice President 
and Chief Scientific Officer of Respiratory Management 
Technology, Incorporated; and Dr. Ronald Brown, MD, Managing 
Partner and CEO of AeroClave, LLC.
    Gentlemen, welcome. Would you like to go in the order that 
we have you listed with Mr. Meenan first, or have you 
predetermined that you would like to go with some other batting 
order? All right, Mr. Meenan?

TESTIMONY OF JOHN MEENAN, EXECUTIVE VICE PRESIDENT AND COO, AIR 
    TRANSPORT ASSOCIATION; DR. MARK A. GENDREAU, MD, SENIOR 
 ATTENDING PHYSICIAN, LAHEY CLINIC MEDICAL CENTER; DR. MICHAEL 
MCCAWLEY, PH.D., EXECUTIVE VICE PRESIDENT AND CHIEF SCIENTIFIC 
OFFICER, RESPIRATORY MANAGEMENT TECHNOLOGY, INC.; DR. RONALD D. 
      BROWN, MD., MANAGING PARTNER AND CEO, AEROCLAVE, LLC

    Mr. Meenan. Mr. Chairman, thank you very much for inviting 
us to appear today. I have submitted a written statement. I 
would like it made available for the record.
    Efficient and affordable air transportation has helped to 
create a highly international society today. That society 
facilitates the exchange of ideas and goods and, unfortunately, 
viruses. The rapid spread of Severe Acute Respiratory Syndrome 
underscored that fact. But lessons learned from that experience 
can help to limit the impact of possible future disease 
outbreaks.
    Airlines must, of course, be part of any comprehensive 
strategy for controlling potential pandemics, and we continue 
to work to be better prepared to respond promptly and in a 
coordinated way.
    However, the airlines cannot do it alone. We must rely on 
information and guidance from the experts. ATA is proud of its 
record of cooperation with both the Centers for Disease Control 
and the FAA, in responding to the threats of communicable 
diseases.
    This relationship did not start with SARS. Although through 
the years, we have worked closely with Government health 
experts, but SARS brought a new focus.
    During the three month period that SARS played havoc with 
international travel, ATA and its members were in often daily 
contact with CDC to receive updates and provide input on what 
needed to be done to respond. ATA member airlines assisted CDC 
in distributing more than 2.7 million health alert notices to 
travelers.
    Since that time, we have continued discussions with CDC, 
the FAA, and others, to develop more effective mechanisms for 
responding to the next international health crisis.
    Specifically, we have been working to expedite passenger 
contact tracing, an important tool in bringing an end to an 
epidemic, because it allows public health authorities to take 
steps to isolate and treat the affected individuals.
    While airlines have cooperated with public health officials 
to conduct passenger contact tracking for decades, SARS taught 
us all that the old methods, which relied on hand search 
records to reconstruct passenger lists, that simply would not 
work in a situation where you had hundreds of flights and 
thousands of passengers.
    The good news is that we have learned from the experience. 
Should a SARS outbreak or a similar disease occur today, we are 
better prepared to respond swiftly. Working with CDC, airlines 
fully understand reporting requirements for passengers with 
suspected communicable diseases.
    The expansion of CDC's quarantine stations to additional 
airports has made reporting and response far more efficient. 
With input from the airlines, CDC has developed the passenger 
locator card to collect contact information from passengers in 
a machine-readable form. Those forms have been made available 
to the carriers for distribution when directed.
    CDC would identify the countries where exposure to disease 
was of concern, and the specific flights on which locator cards 
and health alert notices would be distributed. Using this 
targeted approach, CDC would be able to gather the information 
necessary to contact the passengers on those flights very 
efficiently.
    This is a valuable interim solution, that represents a 
reasonable approach to the real world challenge we are facing 
in collecting and transmitting passenger information to 
Government agencies.
    The ultimate goal remains a seamless electronic transfer of 
data, but the impediments, including concerns about data 
privacy, incompatible and sometimes outdated computer systems, 
as well as questions of reciprocity with other nations, are 
very significant.
    These issues are not limited to the information required by 
CDC to conduct contract tracing. The same issues and much of 
the same information are at the heart of debates of how to best 
provide advanced passenger information to the Bureau of Customs 
and Border Protection, data needed by TSA to screen passengers, 
and other Federal requirements for passenger information.
    In the interest of public health, safety, and national 
security, ATA's member airlines stand ready and willing to 
assist in each of these endeavors. But we cannot do it in an ad 
hoc, redundant, and uncoordinated fashion.
    We have long called for the unification of these functions 
within the Federal Government, and believe that containing the 
spread of infectious diseases is yet another justification. We 
urge the various agencies that have a need for passenger 
information, not only to continue working with us, but to 
focus, too, on working with each other.
    Thank you for inviting us today. We would be happy to 
respond to questions.
    Mr. Kuhl. Thank you, Mr. Meenan. You may have heard the 
buzzers and the bells going off. That indicates that the 
members are being called to the Chamber for a vote. We are into 
a 15 minute vote and there are 10 minutes left. So Dr. 
Gendreau, if you would like to give your statement in three 
minutes, if you can do it, or else we can just adjourn now 
until 4:00 and come back and do it then.
    Dr. Gendreau. I will defer until you come back.
    Mr. Kuhl. We can do that. We appreciate your understanding. 
So let us adjourn the Subcommittee hearing now until 4:00. 
There are two votes that are going to be recorded. We are in 
the one now, a 15, and then a five, and then we will be right 
back to continue. Thank you very much for your patience and 
understanding.
    [Recess]
    Mr. Kuhl. We will reconvene.
    Dr. Gendreau. Thank you, Mr. Chairman and members of the 
Subcommittee. My name is Dr. Mark Gendreau, and I am a 
physician who has been involved with research regarding air 
travel health issues.
    Recently, a colleague and I published a comprehensive 
analysis of transmission of infectious diseases aboard 
commercial aircraft. My testimony summarizes that analysis and 
review, and I will submit my written testimony. I will 
summarize that here.
    With over one billion passengers traveling by air annually, 
the risk of disease transmission during commercial air travel 
and the potential of commercial aircraft serving as vehicles of 
the pandemics is clearly present. However, the perceived risk 
is actually lower than the actual risk.
    Since 1946, there have been only a handful of serious 
infectious disease outbreaks. Fresh in everyone's minds, 
however, is the SARS outbreak of 2002/2003. As the first severe 
contagious of the 21st century, SARS exemplifies the ever-
present threat of newly emerging infectious diseases and the 
real potential for rapid dissemination made possible by the 
current volume and speed of air travel.
    A total of 40 commercial air flights have been investigated 
for carrying SARS-infected passengers. Five of these flights 
have been associated with probable on-board transmission of 
SARS, infecting a total of 37 passengers.
    One particular flight, Air China Flight 12, involved 22 of 
the 37 infected passengers, and represents a super-spreading 
event.
    What is the risk of contracting an infectious illness 
during commercial air travel? Insufficient data prohibits a 
proper analysis to gain an idea of the probability of disease 
transmission.
    However, despite these limitations, available data suggests 
that the risk of transmission to symptom-free passengers within 
an aircraft cabin is associated to sitting within two rows of 
an affected passenger, with a flight time greater than eight 
hours. However, variation in this association has been 
reported, specifically involving an in-flight SARS 
transmission.
    Risk of infection within the aircraft cabin also seems to 
be affected by ventilation within the aircraft. Ventilation 
dilutes the concentration of infectious particles within any 
confined space, thereby reducing the probability of infection.
    Experience shows us that transmission becomes widespread 
within the passenger cabin, involving all sections when the 
ventilation system is non-operational, as evidenced by an 
influenza outbreak on Air Alaska in 1979, while passengers were 
being kept aboard their grounded aircraft, with an inoperative 
ventilation system.
    HEPA filtering of re-circulated of cabin air as a means of 
minimizing the exposure of infectious particles is established 
within the scientific literature and is strongly endorsed.
    With that said, regulations requiring HEPA filtering of any 
aircraft that utilizes re-circulated air should seriously be 
considered if we want to minimize the risk of disease spread 
within the aircraft cabin.
    Prevention of disease outbreak is perhaps the most 
important means of control and requires a proactive approach. 
The Government, aviation industry, and medical community should 
better educate the general public on health issues related to 
air travel and infection control.
    The only real way to eliminate any risk of cross-infection 
in the aircraft cabin and the rapid world-wide spread of an 
infectious agent is to prevent intending passengers who are 
either substantially exposed to or are carrying a transmittable 
infection from flying.
    This needs to come from education and promoting individual 
responsibility, since the systematic screening of passengers 
for contagious diseases is impractical.
    Although thermal scanners used in airports may be useful in 
detecting symptomatic travelers, they are not an effective 
means of control, since persons exposed to an infectious 
disease could travel without any signs or symptoms, yet still 
be infectious. Good hand hygiene and cough etiquette have been 
proven to reduce the risk of disease transmission, and should 
be promoted.
    In March, 2003, the World Health Organization issued 
specific infection control guidelines for air travel and SARS. 
These guidelines include pre-flight exit screening and travel 
restrictions at regions with recent local transmission of SARS. 
These protocols should be reviewed by appropriate agencies, and 
expanded to pertain to other infectious agents.
    Passenger notification is an issue that is being addressed 
by both the Centers of Disease Control and Prevention, and the 
Aerospace Medical Association, and measures to improve the 
archiving of passenger manifests to facilitate the timely 
notification of exposed passengers should be encouraged.
    In summary, commercial aircraft are a suitable environment 
for the spread of pathogens carried by its occupants. The 
environmental control systems utilized in commercial aircraft 
seem to restrict the spread of infection when the system is 
properly functioning.
    The international health regulations adopted worldwide to 
limit the international spread of disease are being revised to 
provide a means of immediate notification of all disease 
outbreaks of international importance, and it is scheduled for 
a final voting in the World Health Organization General 
Assembly later this year in May.
    Outbreaks will be characterized by clinical syndrome, 
rather than specific diagnosis, to expedite reporting. These 
new regulations and continued vigilance by countries, health 
authorities, airlines, and passengers will keep to a minimum, 
but will not eliminate the risk of the disease spread by the 
aircraft.
    I would be happy to answer any questions. Thank you.
    Mr. Kuhl. Thank you, Dr. Gendreau. Dr. McCawley?
    Dr. McCawley. Thank you, Mr. Chairman, Congressman 
Costello, members of the Subcommittee, RMT would like to thank 
the Committee for inviting us here today for this important 
topic.
    I was reminded by something I had read a number of years 
ago called ``Rat, Lice, and History,'' that infections and the 
spread of infections have altered the course of history in many 
cases, many times not for the better.
    So it is important, I think, that we understand that there 
are both unintentional infections that a number of the members 
of the panel have spoken about, and then there are, today, 
those intentional infections that could be brought about by 
groups intent upon doing damage to the United States.
    So I have submitted a written testimony, which I would like 
read into the record, and let me summarize what we are talking 
about.
    I could, today, go onto an airplane with a device capable 
of generating between five and ten billion particles per hour. 
The device is readily available off the shelf, is inexpensive 
and, in fact, allowable on virtually all airplanes. I am not 
going to go into what it is, in public, obviously. That means a 
terrorist with the means of acquiring the agents could, in 
fact, spread them on a airplane.
    The number is relatively important. I heard about the ASHRA 
committee that is looking into the guidelines for air cabins. 
You have to know what the contaminant source and what the 
contaminant levels could possibly be, before you can know what 
kind of dilution rate you need in that cabin.
    I want to present that, at least, so you know, and so the 
ASHRA can look at those kinds of numbers, because they are 
horrendous. If you even take out 99.9 percent, and that is one 
part in 1,000, you would still have about 10,000 particles 
left. So being able to produce nine or ten billion particles 
per hour is pretty horrendous.
    My company makes a device that is able, in fact, to pick 
out those particles from the background. The reason for that is 
pretty simple. The background of particles that you would find 
in an aircraft cabin or even in this room are very, very tiny. 
They are on the order of 50 to 100 nanameters in size. That is 
five hundredths of a micrometer. A human hair is 100 
micrometers in size. So they are very small particles on the 
number basis, if you were to count them all.
    But if you look at what comes from a generator for the 
kinds of biological weapons that you would have to generate to 
be infectious, you would see particles that are on the order of 
one to ten microns, two orders of magnitude larger.
    So picking them out is like being able to pick out 
basketballs from baseballs on a table. It is relatively simple 
and straight-forward. The means for doing that is relatively 
inexpensive, and we are rolling it out of production this year. 
So we could, in fact, have it on airplanes within the year, in 
terms of the questions that were asked before.
    We also produce, in fact, a device that is called a stage 
alert, because there are three stages to it. If you want the 
simplest measure of that contamination, you would look at both 
the particle number and the size of the particles. The first 
stage of the stage alert does that.
    The second stage then can take a sample, connect it on to a 
filter from the air that may be contaminated, and determine 
whether or not the agents that it collects are living microbial 
agents. That is done with a simple dye, and it takes just a 
couple of seconds to do it.
    So you have a real time monitor in a couple of seconds to 
do an analysis to see whether what you are getting are a lot of 
microbes.
    We have a third stage that is a good bit more expensive in 
terms of being tens of thousands of dollars, that would, in 
fact, readily identify within an hour exactly what the agent 
is. So we have this three stage approach that gives you a very, 
very low false positive rate, in fact. As far as we can tell, 
it is going to be pretty much zero and a very low false 
negative to go along with that.
    So we think this would be of some value to the people who 
are beginning to look at this. We have heard about the Auburn 
University Center of Excellence, and we would propose to send 
them information, if they want it, and it is commercially 
available. So I thank you for letting me make these comments.
    Mr. Kuhl. Dr. Brown?
    Dr. Brown. Good afternoon, Mr. Chairman and members of the 
Committee. I would like to thank you for the opportunity to 
speak with you today, and would ask that my written testimony 
be entered into the record. Thank you.
    AeroClave is a Florida limited liability corporation, which 
was founded in early 2003, and is headquartered in Orlando, 
Florida. Our primary objective in starting this company was to 
design and build a system to decontaminate commercial aircraft, 
that is, rid them of disease-causing organisms.
    We had three primary objectives in designing the unit. 
Number one, it had to be efficient and cost effective. Time is 
money in the airline industry, and any process that required 
planes to be out of service for any length of time would be 
unacceptable.
    In addition, even though airlines could face huge potential 
losses should an outbreak occur, they could hardly afford to be 
faced with additional and substantial operating expenses. More 
simply put, we needed to make sure that the cure was not worse 
than the disease.
    We had to find a way to accomplish the de-contamination 
without using chemicals that might harm expensive avionics or 
other critical aircraft components.
    Lastly, and most important, at least from my personal 
perspective, was the need to accomplish the process without 
endangering the health of the passengers and crews.
    Currently recommendations for a SARS-contaminated plane 
call for cleaning personnel to enter the aircraft in protective 
gear and wipe down the hard surfaces. Those recommendations 
also advise the employer to monitor the health of those workers 
in the future.
    This may subject the employer to potential long-term 
liability, should those workers become ill. Ideally, the 
process we were trying to design should be completed without 
putting anyone inside the aircraft.
    After two years of research and development, we believe we 
have accomplished all these goals with the AeroClave unit. 
Number one, the AeroClave unit is a self-contained, mobile 
apparatus, that manipulates the air temperature and relative 
humidity inside the aircraft, to create an environment that is 
lethal for a number of disease-causing agents, while not 
exceeding the aircraft manufacturer's operational parameters.
    It has its own power supply, and carries enough fuel to run 
for approximately 48 hours. It meets all DOT and EPA 
specifications, and can be transported over the open road, 
without the need for any special equipment or permits.
    It has an environmentally-controlled operator's cab to 
protect the operator for all-weather environments. It has on-
board satellite communications that allow for real time data 
transmission to aircraft maintenance managers, and provides a 
lasting record of the details of each de-contamination cycle.
    It allows us to download any new treatment parameters, 
without the need for on-site reprogramming. It allows for 
remote diagnostics of the equipment, and provides telephone 
communications for technical support from any location on the 
planet.
    The entire process takes approximately two and-a-half 
hours, and costs approximately $100 in consumables, such as 
fuel and filters. Connections to the aircraft are made via 
quick connectors, enabling a crew of two to hook up the 
aircraft in approximately 15 minutes, without the need for any 
special tooling.
    There are no modifications required of the aircraft, and 
regular ground handling crew personnel can be trained to 
operate the equipment in approximately two to three days.
    It uses a closed loop system of hoses to prevent any leak 
of potential pathogens into the local environment, and multiple 
units can be daisy chained together, should the need be 
required for larger aircraft or buildings.
    After the recent hurricanes that devastated many parts of 
Florida last season, we realized that there might be additional 
uses for our equipment. After consultation with state and 
Federal disaster management officials, we have added some 
additional features to increase its versatility.
    After the hurricanes, a number of shelters were left 
without power and communications. With the addition of our 
power and communications distributions center to the unit, we 
are now able to pull up to a facility and restore power, 
conditioned air and heat, and communications within 30 minutes 
of arrival.
    On a recent visit by Pentagon officials, one officer 
commented how this system could be used to provide power and 
conditioned air or heat to field hospitals during the day, and 
then decontaminate those same facilities during the night.
    They also felt that this unit had additional applications. 
In addition to aircraft decontamination, they felt it would be 
useful to help control the spread of disease on board ships, 
submarines, and tactical ground vehicles.
    Currently, we have two prototype units, and have carried 
out extensive testing on a recently de-commissioned DC-9, which 
we have purchased. We have completed the design of our 
production unit, and the first units will begin rolling off the 
assembly line in August of 2005.
    We have hosted a number of demonstrations for a variety of 
state, local, and Federal officials. A number of 
representatives from the United States Department of Defense, 
up to and including two star generals, have witnessed 
demonstrations of our unit.
    We have recently been invited to participate in the FAA's 
Center of Excellence for Airliner Cabin Environmental Research, 
or ACER, as you have heard spoken of today, in Auburn, Alabama, 
where our product will undergo efficacy and reliability 
testing.
    We have recently begun negotiations with another company, 
who is an industry leader in de-contamination and sterilization 
technology, about incorporating their technology into our 
system. By integrating these two technologies, we believe we 
will have a comprehensive solution, with a biological kill 
spectrum that ranges from simple viruses to the most resistant 
spoors, including anthrax.
    Should the Federal Government decide to invest in 
technology such as the AeroClave unit, we would suggest that 
they be viewed and staged as regional disaster preparedness 
assets, possibly under the control of FEMA or some similar 
agency. From a readiness standpoint, we believe that the first 
units should be stationed at major international airports.
    Whether a natural occurring pandemic, or the act of a bio-
terrorist, we believe that AeroClave can help protect the 
country's transportation system, and help mitigate the 
disastrous financial consequences of such an event.
    Whether it be de-contaminating aircraft or other 
transportation vehicles, or establishing and supporting field 
medical units and shelters, we feel the AeroClave unit could be 
a valuable asset in our Nation's defense.
    That concludes my oral presentation. Again, I would like to 
thank Mr. Chairman and the other members of the Committee for 
the opportunity to speak with you today. Thank you.
    Mr. Kuhl. Thank you, Dr. Brown.
    The Chair would recognize the gentleman from Illinois, Mr. 
Costello.
    Mr. Costello. Mr. Chairman, thank you.
    Dr. McCawley, let me ask just a couple of questions. One 
is, you mentioned the cost of the bio-sensor, the stage alert. 
How much would it cost per aircraft?
    Dr. McCawley. Well, if you handle all three stages on 
there, it would cost between $25,000 and $27,000. If you had 
the first two stages on, you would probably be able to do it 
for under $2,000. The third stage could be located at a 
terminal, to then check whatever filter was sampled on the 
aircraft.
    Mr. Costello. What is involved in the maintenance of the 
system and the cost of maintaining stages one, two, and three?
    Dr. McCawley. The primary cost is in stage three, where you 
could have re-agents that would have to be replaced at the end 
of the life span, which would be $100 or $200, probably every 
three to six months.
    Mr. Costello. Explain for me again, if you will, just 
quickly, how the system works.
    Dr. McCawley. Okay, the first stage looks at the size and 
number of particles that are coming through it.
    Mr. Costello. How does it do that?
    Dr. McCawley. It uses a light scattering photometer. Just 
like in sunlight, where you can see dust particles in the air, 
when you shine a laser light through and you have an aerosol 
coming through, the laser light is scattered by the particles. 
The amount of scattering that is there is proportional to the 
size of the particle.
    So each time a particle passes through, you get a pulse 
from the scatter, and the height of the pulse is the sign of 
the particle. So you know the number that have passed through 
and the size.
    The second stage is a dye. It is a dye that has been tested 
out. It is now for sale for evaluating powders. Any living 
microorganism will take up this particular dye. Once the dye is 
taken up, it undergoes a change that makes it florescent. So 
you shine a UV light on it, and the stuff fluoresces, just like 
a black light.
    The third stage, we actually use bacteria phages to 
identify specific micro-organisms. The bacteria phage, 
particularly for bacteria, is very, very specific, when you 
know exactly what you want to look for.
    Mr. Costello. Where are you in the production of the 
system?
    Dr. McCawley. We have all the components in pre-production 
form. We are, right now, going through our casing of those, so 
that we can have the tooling for making the cases that all of 
the materials will fit in. Pretty much, then we will roll them 
off the assembly line.
    Mr. Costello. Is it, in your opinion, possible that the 
system could be used in large buildings in an airport terminal, 
an airport environment?
    Dr. McCawley. Yes, absolutely. We actually had originally 
envisioned the system to be used in urban environments, outdoor 
environments, and in buildings. So both of those would be 
locations.
    Mr. Costello. Would you have a cost estimate on that?
    Dr. McCawley. Again, the cost would be pretty much the 
same, whether it is on an airline or whether it is in a 
building. In a building, depending upon the number of HVAC 
heating ventilation and air conditioning systems that you have, 
you might want to have one in each of those systems. So it 
would depend upon the number of different HVACs.
    Mr. Costello. How large of an area would one cover?
    Dr. McCawley. Probably a cubic foot, at most. Most of that 
would be in that third stage. The first two stages are hand-
held portable kinds of devices.
    Mr. Costello. Very good.
    Dr. Brown, if you would, could you kind of walk me through 
how the AeroClave's decontamination unit operates.
    Dr. Brown. Sure, it is hooked up. We pull the unit up to 
the aircraft. It is a self-contained unit, the size of a 53 
foot tractor trailer. It backs up to the aircraft. The crew 
will then pop the emergency exit windows over the mid-cabin, 
where we enter the supply air.
    We also go in through the pre-conditioned air inlet at the 
rear of the plane, which is what the ground air conditioning 
units are hooked up to when you are sitting on the ramp. That 
forces the heated air, as well, through the internal duct 
system of the plane. The returns are brought out of the baggage 
compartment.
    Then what we do is, we place wireless sensors inside the 
aircraft that transmit telemetry data back to the unit to 
control the process. The aircraft is then brought up to 
temperature.
    Once all these sensors in the plane reach a predetermined 
temperature, then the cycle begins a countdown. Say, for 
example, for SARS, it is a certain temperature for 15 minutes. 
What we do is, we double that time for 100 percent redundancy.
    The clock will then count backwards from 30 minutes. At the 
end of that hold time, the heaters drop off, the air 
conditioning comes back on, and we cool down the plane.
    So within approximately an hour and-a-half to two hours 
after starting the cycle, the plane would be inhabitable again. 
There is no retained heat in any of the upholstery or anything, 
so you could easily board passengers at that time. It takes a 
crew of two about 15 minutes to hook the aircraft up and to 
pull it back apart again.
    Mr. Costello. Does the aircraft have to be modified or 
changed at all?
    Dr. Brown. No, there are absolutely no modifications 
required of the aircraft.
    Mr. Costello. You mentioned the cost of operating the 
system. I think you said it was $100 an hour. Could you go 
ahead and elaborate on that?
    Dr. Brown. Sure. That is the direct operating expenses of 
the unit. Given the fact that each process takes about two and 
a half hours to complete a cycle, that cycle would cost 
approximately $100, and that is primarily in diesel fuel and 
filters that would be required to be changed every 30 days. So 
there is very little maintenance on the unit. The direct 
operating costs are less than $100, each time you would perform 
a cycle on an aircraft.
    Mr. Costello. What is the cost of one of these machines?
    Dr. Brown. Our basic unit is around $500,000.
    Mr. Costello. About $500,000?
    Dr. Brown. Correct.
    Mr. Costello. I have the same question for you that I asked 
Dr. McCawley. Can this system be used in an airport terminal?
    Dr. Brown. Absolutely, absolutely. It can be used for 
really any space that can be compartmentalized, either 
internally or externally. We have had discussions with cruise 
ship operators and, again, with the military, as far as ships, 
submarines, things like that, rescue vehicles, ambulances, 
taxis, buses, subways, trains, anything that can be 
compartmentalized, either externally or internally can be 
treated with this system.
    Mr. Costello. I understand that you have tested the 
prototype on a de-commissioned DC-9.
    Dr. Brown. Correct.
    Mr. Costello. Can you tell us about the results of that 
test?
    Dr. Brown. Well, those tests were primarily designed to 
modulate the air flow and make sure that we could keep the 
temperature range even throughout the aircraft, and to get the 
cycle time down as low as possible.
    Again, time is money in the airline industry. Our initial 
goal was to complete this process within four hours, and now we 
are down around two hours.
    The next stage in the testing process is efficacy testing, 
which through the FAA Center of Excellence. We will actually be 
putting biological indicators into the system.
    What we have been going off of, to date, is empirical data 
that has been supplied to us by virologists and microbiologists 
as to, at what temperature can you kill certain diseases. We 
have proved that we can get the cabin to temperature and 
maintain it without damaging the aircraft. So the next part of 
the testing cycle is actually using biological indicators to 
quantify that.
    Mr. Costello. When do you expect this de-contamination 
system to be in production?
    Dr. Brown. Well, the first production unit will come out in 
early August of 2005.
    Mr. Costello. Do you have customers waiting to use the 
product?
    Dr. Brown. Yes, sir. We are currently negotiating a 
contract with an Australian firm for the purpose of 100 units. 
This is a large company that has global air operations that 
were substantially injured financially by the SARS crisis. So 
even though our contract is pending certification and efficacy 
testing, they are eager to move to the front of the production 
line.
    Mr. Costello. Dr. Gendreau, I wonder if you might want to 
comment on either one of the systems, either the alert system 
or the de-contamination system?
    Dr. Gendreau. I do not know much about the systems and how 
they would interact with the current ventilation system on the 
aircraft.
    Mr. Costello. Is there anything else that you would like to 
add before my time is up?
    Dr. Gendreau. I would say that at this point, the aircraft 
cabin is safe, if there is a system that has a functional 
environmental control system that includes a HEPA filter. I 
guess that is about it.
    Mr. Costello. I have one last question, if I may. You talk 
about both the Government, aviation industry and the medical 
community, and the need to better educate the public. I wonder 
if you might want to elaborate on your suggestions as to how 
all three should go about educating the public.
    Dr. Gendreau. Well, we could do it in the same fashion that 
the CDC did in regards to the hand hygiene initiative that they 
put out several years ago to promote proper hand hygiene in the 
health care workers and the general public. That would be a 
good means of doing it. Public service announcements, 
particularly when there is an outbreak, would be useful, I 
believe.
    Mr. Costello. Mr. Chairman, thank you. I see my time is up, 
and I thank our witnesses for being here today.
    Mr. Kuhl. Thank you, Mr. Ranking Member.
    Mr. Meenan, I have got just a couple of questions. I am 
curious as to if you have an estimate, and I know it is very 
difficult to place estimates. But do you have some sort of an 
estimate on what the SARS outbreak cost the airline industry?
    Mr. Meenan. We never attempted to break out the SARS impact 
from the other issues that were going on at the time, 
particularly the Iraq war. I know I have seen a number used 
publicly that said the industry sustained a $10 billion loss. I 
do not know where that number fame from.
    We do have some data on traffic to and from Toronto during 
that period, that indicates that it was a very substantial 
impact. But we have not tried to back that up into any specific 
number.
    Mr. Kuhl. Since that time, has there been an improved 
communication within the industry to try to deal with this 
issue?
    Mr. Meenan. As my testimony alluded to, we have been 
working, on a very regular basis, with CDC, the World Health 
Organization, and other bodies around the world to deal with 
the whole array of issues involving the possible spread of 
disease by aircraft. I think dealing with things like contact 
tracing, dealing with the installation of filters on aircraft, 
the entire spectrum of activity has moved us in a very positive 
direction.
    Mr. Kuhl. Do people in the airline industry, particularly 
employees, ever refuse to put sick people on airplanes?
    Mr. Meenan. The existing regulations limit very 
substantially the ability of an airline to do that. The anti-
discrimination regulations of the Department of Transportation 
are somewhat ambiguously worded, but they are worded in such a 
way that it greatly inhibits the ability of the carrier to 
refuse transport to anyone who is not easily recognizable as 
posing an immediate threat. Obviously, most ill passengers do 
not fall into that category.
    So we have been seeking some additional guidance in really 
working again with CDC. We defer to CDC as to the best way to 
address these problems.
    But the airlines do obviously engage in sort of common 
sense approaches to dealing with passengers who appear ill. 
They try to encourage them to see their physicians to deal with 
their health issues and so forth.
    Mr. Kuhl. Do you have any suggestions, or do you care to 
elaborate on what other types of oversight might be potentially 
helpful to the industry?
    Mr. Meenan. As I said, we have specifically asked for 
additional guidance as to what exactly the Department of 
Transportation is referring to in this existing regulation. I 
think that because the diseases we are dealing with here, the 
symptoms may not be clear. The communicable phase may not be 
understood at the time the disease comes out.
    It has to be somewhat of an ad hoc approach to the 
situation. But it has to involve health care professionals at 
that stage. I think expecting airline employees to fill the 
role of a trained medical professional is not particularly 
practical.
    Mr. Kuhl. Dr. McCawley, do you have any thoughts on that 
particular issue, as to ways that we could help the industry 
out in avoiding contamination within the cabins?
    Dr. McCawley. Well, actually, as I said, the kinds of 
things you would be looking for are what we are measuring with 
our devices, particularly for the terrorist attacks, which have 
been bothering me for quite awhile now.
    For the terrorist attacks, if you can catch somebody doing 
it and there is an alarm that goes off, you can prevent a lot 
of contamination that you then do not have to clean up and you 
do not have to worry about it. So the less that happens, the 
better off you are. Prevention is the key. that is why CDC 
added ``and Prevention'' to its title, I suppose.
    Mr. Kuhl. Lastly, Dr. Brown, I know I am not looking for 
you to disclose all of your potential clients. But I am curious 
as to what other countries, other industries, might potentially 
avail themselves of your product, that are seeking you out to 
try to engage your services.
    In other words, you mentioned an industry in Australia. Are 
there other countries who are trying to be as preventative as 
we are, who are looking to resolve these issues before they 
become issues?
    Dr. Brown. Oh, very much so. We are now in discussions with 
qualified customers. We have had a lot of ``tire kickers'' I 
guess, for lack of a better term. But we quickly sort those 
out, and we are dealing now with qualified customers from 
several countries in Europe, from the Middle East, and from 
Southeast Asia.
    Besides the airline industry, we are also speaking with 
representatives from the shipping container industry, from the 
cruise line industry, from the rental car industry, and mass 
transit authority, particularly in Europe.
    Europe seems to be driven by mass transit. What seems to be 
happening over there is that on an almost daily basis, the 
tabloids are bringing these horrendous scare tactics stories to 
the press, and it is driving people away from mass transit, 
which is putting them into private vehicles, which is now 
clogging their system.
    So they are desperately seeking a way to give the public a 
sense of security that it is indeed safe to ride on the subway 
or the buses. So those are the industries that we are dealing 
with now, and the military has several other potential uses in 
mind.
    Mr. Kuhl. Well, thank you. Do any of you gentlemen have 
anything further that you would like to offer at this time, any 
additional comments that we did not elicit from you? Dr. 
Gendreau?
    Dr. Gendreau. I would like to just say something in terms 
of how do you screen somebody, in terms of getting on an 
aircraft.
    Right now, the resources that are available vary between 
airport to airport. One resource that is used by some airlines 
right now is private medical companies, in which someone can 
call a physician and express concerns about the fitness to fly 
of a particular passenger.
    Then that physician can get on the phone and interview that 
particular passenger, and make a determination of whether or 
not that person should fly or not.
    Mr. Kuhl. Dr. Brown, you had something you wanted to say?
    Dr. Brown. Yes. It seems like the reoccurring theme that I 
have heard from a number of members of the Committee is being 
preemptive or being proactive, instead of reactive.
    It has always been my experience that it is less expensive 
to prevent than to mitigate. So I would encourage members of 
the Committee to be supportive of the efforts, such as the FAA 
Center of Excellence, that does bring together Government and 
private industry, with a mandate not to reinvent the wheel, but 
to incorporate existing technologies and bring them to market.
    Because I do believe that we do face a potential threat, 
whether it is imminent or in the very near future. Who knows? 
But I think it will be beneficial to all if we are adequately 
prepared before the event begins, rather than trying to mop up 
the effects after it starts. I thank you for your leadership in 
bringing this issue before us.
    Mr. Kuhl. Well, if there is nothing further, gentlemen, Mr. 
Meenan, Dr. Gendreau, Dr. McCawley, and Dr. Brown, thank you 
very much for coming. Thank you for your patience and 
understanding that we were called away for a short period of 
time, and we thank you for your testimony. We appreciate your 
being here today. With that, we will conclude the hearing.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1630.002
    
    [GRAPHIC] [TIFF OMITTED] T1630.003
    
    [GRAPHIC] [TIFF OMITTED] T1630.004
    
    [GRAPHIC] [TIFF OMITTED] T1630.005
    
    [GRAPHIC] [TIFF OMITTED] T1630.006
    
    [GRAPHIC] [TIFF OMITTED] T1630.007
    
    [GRAPHIC] [TIFF OMITTED] T1630.008
    
    [GRAPHIC] [TIFF OMITTED] T1630.009
    
    [GRAPHIC] [TIFF OMITTED] T1630.010
    
    [GRAPHIC] [TIFF OMITTED] T1630.011
    
    [GRAPHIC] [TIFF OMITTED] T1630.012
    
    [GRAPHIC] [TIFF OMITTED] T1630.013
    
    [GRAPHIC] [TIFF OMITTED] T1630.014
    
    [GRAPHIC] [TIFF OMITTED] T1630.015
    
    [GRAPHIC] [TIFF OMITTED] T1630.016
    
    [GRAPHIC] [TIFF OMITTED] T1630.017
    
    [GRAPHIC] [TIFF OMITTED] T1630.018
    
    [GRAPHIC] [TIFF OMITTED] T1630.019
    
    [GRAPHIC] [TIFF OMITTED] T1630.020
    
    [GRAPHIC] [TIFF OMITTED] T1630.021
    
    [GRAPHIC] [TIFF OMITTED] T1630.022
    
    [GRAPHIC] [TIFF OMITTED] T1630.023
    
    [GRAPHIC] [TIFF OMITTED] T1630.024
    
    [GRAPHIC] [TIFF OMITTED] T1630.025
    
    [GRAPHIC] [TIFF OMITTED] T1630.026
    
    [GRAPHIC] [TIFF OMITTED] T1630.027
    
    [GRAPHIC] [TIFF OMITTED] T1630.028
    
    [GRAPHIC] [TIFF OMITTED] T1630.029
    
    [GRAPHIC] [TIFF OMITTED] T1630.030
    
    [GRAPHIC] [TIFF OMITTED] T1630.031
    
    [GRAPHIC] [TIFF OMITTED] T1630.032
    
    [GRAPHIC] [TIFF OMITTED] T1630.033
    
    [GRAPHIC] [TIFF OMITTED] T1630.034
    
    [GRAPHIC] [TIFF OMITTED] T1630.035
    
    [GRAPHIC] [TIFF OMITTED] T1630.036
    
    [GRAPHIC] [TIFF OMITTED] T1630.037
    
    [GRAPHIC] [TIFF OMITTED] T1630.038
    
    [GRAPHIC] [TIFF OMITTED] T1630.039
    
    [GRAPHIC] [TIFF OMITTED] T1630.040
    
    [GRAPHIC] [TIFF OMITTED] T1630.041
    
    [GRAPHIC] [TIFF OMITTED] T1630.042
    
    [GRAPHIC] [TIFF OMITTED] T1630.043
    
    [GRAPHIC] [TIFF OMITTED] T1630.044
    
    [GRAPHIC] [TIFF OMITTED] T1630.045
    
    [GRAPHIC] [TIFF OMITTED] T1630.046
    
    [GRAPHIC] [TIFF OMITTED] T1630.047
    
    [GRAPHIC] [TIFF OMITTED] T1630.048
    
    [GRAPHIC] [TIFF OMITTED] T1630.049
    
    [GRAPHIC] [TIFF OMITTED] T1630.050
    
    [GRAPHIC] [TIFF OMITTED] T1630.051
    
    [GRAPHIC] [TIFF OMITTED] T1630.052
    
    [GRAPHIC] [TIFF OMITTED] T1630.053
    
                                    

</pre></body></html>
